Department of Health and Human Services

        OFFICE OF 

   INSPECTOR GENERAL 





IN-HOSPITAL VOLUNTARY PATERNITY 

    ACKNOWLEDGMENT   PROGRAM 


 Effective   Practices in Hospital Staff Training




                          JUNE GIBBS BROWN
                          Inspector General

                              AUGUST 1997
                             OEI-06-95-00162
                             OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 954.52, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This statutory
mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by three OIG operating components: the Office of Audit Services, the Office of
Investigations, and the Office of Evaluation and Inspections. The OIG also informs the Secretary of
HHS of program and management problems and recommends courses to correct them.

                  OFFICE OF EVALUATION AND INSPECTIONS

The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and
the public. The findings and recommendations contained in these inspection reports generate rapid,
accurate, and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental
programs.

OEI’s Dallas Regional Office prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General.

Project Staff included:


DALLAS REGION                                                   HEADQUARTERS

Ruth Ann Dorrill, Project Leader 
                               Ann O’Connor, Program Specialist
Lisa Lesh, Intern 

Marnette Robertson 





For additional copies of this report, please contact the Dallas Regional Office at (800) 8488960.
Department of Health and Human Services

        OFFICE OF 

   INSPECTOR GENERAL 





IN-HOSPITAL VOLUNTARY PATERNITY 

    ACKNOWLEDGMENT   PROGRAM 


 Effective   Practices in Hospital Staff Training




                          JUNE GIBBS BROWN
                          Inspector General

                              AUGUST 1997
                             OEI-06-95-00162
                 EXECUTIVE                              SUMMARY

PURPOSE

This report describes State best practices in training birthing hospital staff on voluntary
paternity acknowledgment procedures.

BACKGROUND

Federal law requires that States implement hospital-based programs for the voluntary
acknowledgment of paternity, seeking to facilitate at-birth paternity establishment for children
born to unmarried parents. Paternity researchers agree that the most opportune time for
paternity establishment is the “happy hour” in the hospital immediately following birth.
Within this narrow window of exposure to unmarried parents, birthing hospital staff must be
prepared to inform parents about voluntary acknowledgment. State child support agencies
are required to make available voluntary acknowledgment materials for training hospital staff
and must monitor birthing hospital compliance on at least an annual basis. Hospital staff are
required to provide mothers and fathers with both written materials and oral explanations
regarding their rights and responsibilities. They must therefore be educated on the
mechanics of incorporating paternity acknowledgment into pre-existing birth registration
methods, and on the procedures and effects of acknowledging.

FINDINGS

In collecting information nationwide for our companion report on state agency and birthing
hospital implementation of voluntary paternity acknowledgment programs, we found most
State child support agencies (IV-D) had launched efforts to inform birthing hospital staff of
the paternity effort and to provide support to such staff in communicating with unmarried
parents. However, after surveying a sample of hospitals on their contact with IV-D and their
comfort level in administering paternity acknowledgment procedures, we found that materials
often did not appear to meet the needs of birthing hospital staff. This report describes
effective State practices for training hospital birthing staff in understanding paternity
acknowledgment and their responsibility for talking with unmarried parents about this
important issue. These highlighted practices in no way represent all efforts nationwide, but
give a snapshot of procedures that have been reported to us by agencies and hospitals in the
course of our study.

Guidelinesfor Creating HospitalStaff Training Materials

Training materials should clearly communicate both the mechanics of acknowledging and the
purpose and benefits of paternity acknowledgment.

Training materials should contain simple, clear instructions and clearly delineate the roles
and responsibilities of both State agencies and hospital staff.



                                                    i
The usefulness and clarity of training materials are improved by dividing them into separate
sections on administrative procedure and parental contact.

Training materials should always include contact information on current child support staff to
whom paternity questions may be directed or new training needs articulated.

HospitalStaff Training Methods

Training materials may be more effective when geared toward informal use, in recognition
that much of staff training is ad hoc and takes place within the varied schedules of hospital
staff.

Increased recognition and attention to training materials can be achieved through repetitive
use of familiar logos, graphics, slogans and acronyms.

On-site visits, workshops and seminars, which allow more personalized training and greater
interaction between agency personnel and birthing hospital staff, appear to be more effective.

Using multiple training methods helps to ensure a clear and repetitive message reaches all
varieties of hospital environments.

Training materials are less likely to be effective without direct contact between child support
offices and hospital staff.

Connecting HospitalAssessments to Staff Training

Keying staff training materials to hospital assessment outcomes may allow State child support
agencies to more fairly and accurately evaluate hospital program participation.

Linking staff training and hospital assessment provides a framework within which the child
support agency may address any problems of hospital noncompliance.

AGENCY COMMENTS

We have worked in close partnership with the Office of Child Support Enforcement (OCSE)
throughout the conduct of this inspection. Although we did not receive formal comments
from ACF on our draft reports, they demonstrated through their collaboration a general
agreement with this report and the companion reports. We worked with OCSE in developing
a research methodology, provided extensive briefings on study findings and created additional
documents to meet agency needs. We appreciate their cooperation and guidance, and will
continue to work with them on the issues raised in these reports.




                                                 ii
                     TABLE                   OF          CONTENTS

                                                                                                        PAGE

EXECUTIVESUMMARY                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

FINDINGS

      Guidelines for Hospital Staff Training           . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

      Hospital Staff Training Methods           . . . . . . . . . . . . , . . . . . . . . . . . . . . . . . . 6

      Connecting Hospital Assessments to Staff Training                 . . . . . . . . . . . . . . . . . . . . 8

CONCLUSIONS           . . . . . . . . . . . . . . . . . . . ..I....................                           10

APPENDICES

 A.        Staff Fact Sheets ...................................                                            A-l
 B.        Consequences Flow Chart ..............................                                           B-l
 C.        Instruction Sheets ...................................                                          .C-1
 D.        Reminder Checklist ..................................                                            D-l
 E.        Roles of Key Players ..................................                                          E-l
 F.        Affidavit Instructions ..................................                                        F-l
 G.        ParentQ&A        .....................................                                           G-l
 H.        Legal Advice ......................................                                              H-l
 I.        Hospital Needs Surveys ................................                                           I-l
 J.        Program Objectives ...................................                                            J- 1




                                                        ...
                                                        111
                           INTRODUCTION

PURPOSE

This report describes State best practices in training birthing hospital staff on voluntary
paternity acknowledgment procedures.

BACKGROUND

The Omnibus Budget Reconciliation Act of 1993 (OBRA) amends the Child Support Title 

IV-D of the Social Security Act, requiring States to implement hospital-based programs 

for the voluntary acknowledgment of paternity. The objective of these programs is to 

facilitate at-birth paternity establishment for children born to unmarried parents. 

Establishment of paternity at birth has many administrative, financial and emotional 

benefits. Mothers often lack information about the importance of and methods for 

establishing paternity. Consequently, they may not seek to establish paternity until a point 

at which the process becomes more difficult. 


Paternity researchers agree that the most opportune time for paternity establishment is the 

“happy hour” in the hospital immediately following birth and before the release of the 

mother and child. Within this narrow window of exposure to unmarried parents, birthing 

hospital staff must be prepared to inform parents about the option of voluntary 

acknowledgment. Without an establishment of paternity, unmarried mothers may never 

obtain a child support order and gain access to the enforcement services of their child 

support office. Under OBRA, State child support agencies must, among other 

requirements, make available voluntary acknowledgment outreach materials, including 

information on parental rights and responsibilities, and materials for training hospital staff. 

Also relative to hospital staff training, State child support agencies must monitor birthing 

hospital compliance on at least an annual basis. 


The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 

(PRWORA) expands the role of hospital staff by requiring them to provide mothers and 

fathers with both written materials and oral explanations regarding the rights and 

responsibilities of paternity establishment. As interpreted by the Office of Child Support 

Enforcement (OCSE), the intent of both OBRA and PRWORA is to make voluntary 

paternity acknowledgment part of the birth registration process. Therefore, birthing 

hospital staff must not only be able to inform parents of the consequences of 

acknowledging paternity, but also be educated on the mechanics of incorporating paternity 

acknowledgment into pre-existing birth registration and documentation procedures. 


This report, which describes effective State efforts to educate hospital birthing staff is one 

of four reports in a series on hospital-based voluntary paternity acknowledgment 

programs. Others include “In-Hospital Voluntary Paternity Acknowledgment Programs: 

State Agency and Birthing Hospital Implementation” (OEI-06-95-00160) details nationwide 

program participation, “In-Hospital Voluntary Paternity Acknowledgment Programs: 

Hospital Experiences in Sample States” (OEI-06-95-00161) describes program usage based
on survey responses from birthing hospitals and State agencies in 15 sample States, and
“In-Hospital Voluntary Paternity Acknowledgment Programs: Effective Practices In Parent
Outreach” (OEI-06-95-00163) highlights State efforts to educate unmarried parents.

METHODOLOGY

After preinspection research, we administered comprehensive mail surveys on the
voluntary paternity acknowledgment process to State child support and vital records
agencies in every State and the District of Columbia and to 566 birthing hospitals in a
sample of 15 States. In addition to completing the surveys which provided data for our
primary reports on implementation and hospital experiences, agencies sent examples of
paternity acknowledgment training and outreach materials and photocopies of their birth
certificates and voluntary paternity acknowledgment forms. We received completed
surveys and supplemental materials from both agencies in every State and from 429 (78
percent) of birthing hospitals sampled.

The supplemental materials on hospital staff training included manuals, instruction sheets,
videos, advertisements, brochures and workshop curriculum guides. We conducted
telephone follow-up approximately six months after receiving these materials to request
any supplemental training documents and received a number of new or updated materials.
Content analysis was conducted and a smaller number of materials and innovative ideas
were subjectively selected for inclusion in this report.

This study was conducted in accordance with the Quality Standards for Inspections issued
by the President’s Council on Integrity and Efficiency.




                                             2

                                   FINDINGS 


In collecting information nationwide for our primary reports on State agency and birthing
hospital implementation of voluntary paternity acknowledgment programs and hospital
experiences in a sample of States, we found that most State child support agencies (IV-D)
had launched efforts to inform birthing hospital staff of the paternity effort and to provide
support to such staff in communicating with unmarried parents. However, after surveying
a sample of hospitals on their contact with IV-D and their comfort level in administering
paternity acknowledgment procedures, we found suggested training materials often did not
meet the needs of birthing hospital staff. Sometimes this problem was a matter of poor
distribution and lack of follow-up contact, and sometimes it was the fault of the materials
themselves. Regardless, birthing hospital staff reported confusion over their roles in the
paternity programs even though they showed a strong willingness to take responsibility for
such a role.

This report describes effective or innovative training practices within States which are
seeking to help birthing hospital staff understand the acknowledgment process and to
facilitate their responsibility for talking with unmarried parents about this important issue.
The first section below details guidelines child support agencies should consider when
creating hospital staff training materials. The next section provides examples of effective
practices in which a variety of training mediums and methods are employed. The report
ends with our conclusions based on analysis of the materials and practices made available
to us. These highlighted practices in no way represent all efforts nationwide, but give a
snapshot of what has been reported to us by State IV-D and vital records agencies and
birthing hospitals in the course of our data collection.

GUIDELINES FOR HOSPITAL STAFF TRAINING

Training MaterialsShould Clearly Communicate the Purpose of Paternity
Acknowledgmentand its Benefits to Children, Unmarried Parents and Public Health.

A number of staff training materials we received did a thorough and admirable job of
explaining the administrative details of paternity acknowledgment but neglected to briefly
and clearly describe the overriding purpose of the paternity effort. They might only
mention that paternity programs must by Federal mandate be implemented in all birthing
hospitals but miss the opportunity to explain the public health and social service policy
behind the mandate. This may lead hospital staff to minimize the importance of the
paternity effort and, even worse, convey a limited and possibly inaccurate message to
unmarried parents. If staff understand the core of the paternity issue, they will not only
be more motivated to fulfill their role but will also be more competent in explaining the
importance of paternity acknowledgment to parents. The child support agency in
Connecticut includes copies of relevant State statutes with their hospital information
packets, explaining both the law and its public policy.
Simple statements describing the program’s objectives may go a long way toward
highlighting the significance of the program in the minds of staff. Appendix A includes
simple fact sheets for hospital staff which explain the purpose of paternity
acknowledgment and the importance of the in-hospital effort in clear and direct language.
Missouri and New Jersey, among other States, use nonmarital birth and poverty statistics
to convey a sense of urgency and importance, and New Jersey subtitles all written
materials with the phrase “Preventing Childhood Poverty.” In Texas, hospital staff are
given a flow chart which outlines the process of applying for public assistance if the
mother has not acknowledged (Appendix B).

Training Materials Should Contain Simple Instructionsand Clearly Delineate Roles and
Responsibilitiesof Both StateAgencies and HospitalStaff.

Birthing hospital staff are obligated to provide new parents with information on a wide
variety of important topics within a very brief time period. Areas of concern that must be
addressed during the mother’s hospital stay include infant care, home safety, breast
feeding and post-par-turn nutrition. Unmarried mothers, often due to youth and lack of
experience, may be particularly unprepared for the responsibilities of parenthood and be
even more likely than married mothers to need greater assistance from hospital staff in
understanding these health-related issues.

Child support agencies should be respectful of the responsibility of hospital staff to convey
a deluge of information to parents and should keep paternity instructions as simple as
possible. A number of States including Arkansas, Arizona and New Hampshire, while
still providing more in-depth training materials, have condensed the most important
information into a single one or two-sided sheet of paper that describes staff
responsibilities step-by-step (see Appendix C). These single sheets are often laminated for
easier use and distribution. Staff may refer to the supplementary materials should they
desire more information but can easily carry around or memorize the single sheet. It also
may be useful to provide hospitals with a checklist of reminders which would ensure all
appropriate steps were taken in the acknowledgment process (see Appendix D).

We found in our survey of birthing hospitals that staff are often confused about their role
in the process, even when they understand the paternity effort and its importance. They
may believe, for example, that only child support staff may explain issues related to the
rights and responsibilities of acknowledgment or may overestimate the parent’s prenatal
exposure to paternity information and minimize the importance of their own contact with
parents. In response to this confusion, some States outline not only the responsibility of
hospital staff in their training manuals, but also the specific roles of the child support
agency and the public health department as they relate to paternity acknowledgment
(Appendix E). This allows hospital staff to understand their responsibilities relative to the
other key players and to better see how they fit into the process.
The Usefulness and Clarityof Training Materialsare Improved by Dividing them into
Separate Sections on Administra’ve Procedure and Parental Contact.

There are two aspects to fully understanding and facilitating the paternity effort: the “nuts
and bolts” of documenting paternity and the personal and social issues which surround the
act of acknowledgment. The most clear and easily-readable hospital staff training
documents separate the “nuts and bolts” from the more subjective issues. For example,
the first section of one staff training manual from California explains the importance of
paternity, provides a brief history of the program, and discusses related issues such as the
marital status of the mother and genetic testing. The second section outlines exactly what
staff must do to complete and document acknowledgments.

Because hospital staff are accustomed to dealing with the birth registration process and
because the intent of the Federal requirements is to make paternity acknowledgment a part
of birth registration, child support agencies may be well-advised to include administrative
instructions on paternity acknowledgment within this pre-existing structure. The child
support agency in Delaware coordinated with its State vital records office to create a
document which provides instructions for completing each data element on the paternity
affidavit using the same method birth registrars are familiar with from completing birth
certificates (see Appendix F).

Although it is crucial for hospital staff to be clear on the administrative details involved in
completing and filing paternity documentation, staff are very often placed in the position
of having to answer detailed questions and to explain related child support and legal issues
to parents. In addition, PRWORA requires that hospital staff provide an oral description
of the rights and responsibilities that accompany acknowledgment. A number of States
have created staff training materials in a “Question and Answer” format that outline
typical topics parents may need to understand (see Appendix G). These topics include
paternity establishment of siblings, custody and visitation, public assistance, and
procedures for acknowledging outside the hospital. Virginia and other States even include
copies of child support enforcement applications in materials given to hospitals.

Hospital staff cannot possibly be expected to answer complex legal questions and give
substantive advice to new mothers, but unmarried parents appear to often have the same
questions which may at least be superficially addressed if hospital staff are themselves
given such information. To help hospital staff resist the temptation to go outside
appropriate boundaries when providing information, Colorado includes a section in their
training manual entitled, “How Not to Give Legal Advice” which provides a simplified
judicial definition of “legal advice” and relates the judgement specifically to paternity
acknowledgment (see Appendix H) .

The most important aspect of these brief “bullet” responses may be to refer parents to the
appropriate source for answers to their questions. These documents are often casual in
format: California has produced a document entitled “Helpful Advice to Hospital Staff”
and several States produced documents of “If. . .” questions that are informative and easy
to read. Another value to a “Q & A” format is that it simulates the exchange between


                                               5
hospital staff and parents. Even when staff understand paternity and their responsibilities,
they may be uncomfortable with the process unless it is modeled for them in some way.
We received very few hospital staff training videos, but one that we did receive from New
Jersey effectively used actors to demonstrate several typical staff/parent exchanges. A
few other States use their parent outreach video to help train hospital staff.

Training Materials Should AlwaysInclude ContactInformation on Current Child
Support Staff to Whom PaternityQuestionsMay be Directed or New Training Needs
Articulated.

State child support agencies active in meeting the needs of their birthing hospitals often
supplement their training materials with frequent direct contacts with hospital staff. These
direct contacts include phone calls, letters and on-site visits, which vary with State size
and child support agency staffing levels. Missouri and Texas, among others, conduct
surveys of their birthing hospitals (see Appendix I) to determine current training and
informational needs. When a hospital doesn’t respond to the survey, it is automatically
contacted by the child support office to inquire about needs or possible problems. The
simplest method for encouraging direct contact may be to provide hospital medical records
and obstetrics departments with current addresses and phone numbers of child support
field offices and local registrars which distribute voluntary acknowledgment forms and
training materials. Whenever possible, this contact information should include the name
of a specific child support staff member familiar with hospital needs and procedures.
Hospitals are then able to contact State agencies based upon their own needs and
convenience.

HOSPITAL STAFF TRAINING METHODS

The Effectiveness of Training MaterialsMay be Enhanced by Designing them for
Informal Use, Recognizing that Much of Staff Training is Ad Hoc and Takes Place
Withinthe Varied Schedules of HospitalStaff.

Although child support agencies may wish that all hospital staff training could be highly
organized and structured, reality dictates that much of the training available to staff is
very informal and ad hoc. If staff do not happen to be present during a regional seminar
or on-site visit by a child support agency worker, they may hear about the process by
word-of-mouth or be introduced to the materials only when a parent requests information.
Training then becomes highly individual and dependent upon the needs, style and habits of
the individual. Even in States with highly organized training methods, much of training
appears to take place within the routine schedule of informing staff of birth registration
methods and techniques.

Materials that were created to be used in seminars or in conjunction with other materials
may be used alone and without explanatory verbal instructions. In creating hospital staff
training materials, therefore, child support agencies should recognize that their materials
may be used informally and construct them accordingly. The Illinois child support agency
has attempted to make all of their materials “stand alone”, but with cross references to


                                             6
each other. Every page of their materials references the program name and phone number
in case materials are lost or separated. A few child support agencies have created a series
of quick reference sources such as bookmarks, magnets and business cards to reach
hospital staff who may never review the training manual. These materials contain a
comparatively small amount of information, but may encourage staff members to further
inform themselves about the process and explore more formal training materials.

Increased Recognition and Attentionto Training MaterialsCan be Achieved Through
RepetitiveUse of Familiar Logos, Graphics, Slogans and Acronyms.

Although it will surely increase the initial cost of producing training materials, child
support agencies should consider paying for some sort of graphic design to embellish all
of their hospital staff training and parent outreach materials. These designs highlight
paternity documents and help distinguish them from the sea of paperwork received by
medical records and obstetrics departments. Using an unusual but uniform color paper
may help accomplish the same objective. Also in this vein, creating a catchy program
name or easily used acronym is a simple technique for effectively marketing the paternity
effort and increasing recognition and repetition of message. States should also make the
distinction between staff training materials and parent outreach materials through the use
of titles, graphics or color. The child support agency in Florida has taken pains to label
each document clearly according to its audience.

On-Site Visits, Workshopsand Seminars, Which Allow More Personalized Training and
Interaction Between Agency Personnel and Birthing HospitalStaff, Appear to be More
Effective.

Intuitively, we know that the training needs of birthing hospitals within the same State
may be very different. One hospital may have an energetic, dedicated birth registrar with
a personal interest in the problems of unmarried mothers, while another hospital may have
frequent staff turnover and only a handful of nonmarital births per month. The closer ties
child support staff develop with each hospital, the more they are able to tailor their
training efforts to match hospital needs. Several States including Colorado, Florida and
Illinois employ at least one IV-D worker to travel from hospital to hospital meeting staff
and assessing needs on-site. These initial contacts are often maintained by phone or mail.


On-site visits may or may not include formal instruction such as workshops, lectures or
seminars. Our respondents agree that the key to conducting these sessions successfully
appears to be keeping them brief and providing an open-ended question period which adds
value to the session by personalizing the information received. Staff should feel that by
attending the session they can learn more that is relevant to their particular hospital than
they would by simply reading the written materials. Although not required by Federal
mandate, Montana and a number of other States also offer training specific to nurse mid-
wives who operate outside of a hospital setting.




                                              7

HospitalStaff Training ActivitiesAfford an Excellent Opportunityfor Closer
CollaborationBetween VitalRecords and Child Support Agencies.

State vital records agencies often already conduct regional and local training sessions for
hospital birth registrars, and in several States the child support agency has requested time
during the sessions to promote the acknowledgment effort and educate staff. Because
PRWORA requires the involvement of vital records agencies in State in-hospital voluntary
acknowledgment programs, some State registrars may even be willing to conduct the
training themselves or in coordination with child support staff using materials provided by
IV-D. This method would take advantage of the long-term relationship between vital
records agencies and hospital birth registrars, but would still involve IV-D because,
ideally, hospital staff should be acquainted with child support agency staff. This will
allow IV-D and hospital staff to begin to build their own working relationships and
increases the awareness of IV-D staff and child support issues within the hospital
community. An important point to consider in discussing any regional training efforts is
that often only the principal hospital birth registrar attends such sessions. Although they
are certainly valuable, regional training sessions are best used in conjunction with other
written and interactive methods which are likely to be useful to all staff.

CONNECTING HOSPITAL ASSESSMENTS TO STAFF TRAINING

Adapting Staff Training Materialsto HospitalAssessment OutcomesMay Allow State
Child Support Agencies to More Fairly and Accurately Evaluate Birthing Hospital
Program Participation.

Although OBRA only requires that child support agencies monitor the program
participation of birthing hospitals by comparing the number of acknowledgments a hospital
receives to their total number of nonmarital births, a few States have begun to assess
hospital procedures as well as outcomes. Examples of potential assessment criteria
include hospital staff contact with unmarried parents, documentation handling, and even
use of staff training and parent outreach materials.

If States are to truly evaluate hospital participation, they must communicate clear outcome
expectations and must make sure that hospitals understand those expectations. Hospital
staff training can be used effectively for this purpose. Both New Jersey and
Massachusetts clearly coordinated its staff training efforts with future assessment
procedures. Its staff manual is structured as a set of objectives (see Appendix J) with
specific instructions following each goal. Objectives include the receipt of more signed
acknowledgments but also address actions which may lead to a higher acknowledgment
rate, such as wide distribution of materials and structured internal training of new staff.




                                              8

Linking Staff Training and HospitalAssessment Provides a Framework Within Which
the Child Support Agency May Address Any Problems of HospitalNoncompliance.

Because many States consider themselves too early in implementation to require hospital
compliance or are not yet aware of which hospitals are truly participating, the issue of
hospital noncompliance has not yet been widely addressed. Once program implementation
is Statewide, child support agencies must not only effectively monitor hospital
participation but must also prepare policies and procedures for dealing with hospitals
which do not meet their program objectives. State child support offices may be better
able to describe and address deficiencies in hospital participation if they can refer to a
performance framework established during hospital training. Writing training materials
and curriculum with overall program objectives in mind allows the staff training and
hospital assessment procedures to complement each other.




                                            9

                            CONCLUSIONS

Although many States are still early in their implementation of in-hospital voluntary
paternity acknowledgment programs, a number of State child support agencies have made
great strides in addressing the needs of birthing hospital staff as they communicate with
unmarried parents and aid in the documentation of acknowledgment. Based upon our
analysis of the materials and practices reviewed in this report, we draw the following
conclusions about State efforts to educate birthing hospital staff about voluntary paternity
acknowledgment programs:

SIMPLICITY OF MESSAGE. VoluntaryAcknowledgmentMaterials That are Simple
and StraightforwardBest Suit the Busy Schedules of Obstetricsand Medical Records
Staff.
Hospital staff must inform new parents about many health-related topics and often have
little time to cover paternity instructions. Therefore, hospital staff training materials must
be simple to use. One method is to create brief materials which include only the most
crucial instructions and information and supplement these snapshots with more detailed
materials to be used as needed.

USE OF MULTIPLE METHODS. Use of Multiple Training Methods Helps Ensure a
Clear and RepetitiveMessage Reaches All Varieties of HospitalEnvironments.

Regardless of the primary methods used, all highly proactive States employ a wide variety
of mediums, methods and techniques for carrying their message. The same States which
had produced thorough training manuals were also likely to have created brief brochures,
videos and posters which conveyed the same message using similar graphics, acronyms
and slogans.

FOLLOW-UP AND PERSONAL CONTACT. Training Materialsare Unlikelyto Be
Effective WithoutDirect Contactby State Child Support Staff.

The closer ties child support staff develop with each hospital, the more likely they are to
tailor their training to match hospital needs. Materials may not be used effectively or at
all when they have been received with no personal contact, verbal explanation or
interaction. Also, direct contact through on-site visits can help to build relationships
between child support agencies and hospital staff and lead to better resolution of any
future issues.

TRAINING TIED TO ASSESSMENT. ConsiderationShould Be Given to Future
Assessment of HospitalParticipationWhen Creating Staff Training Materials.

If States are to truly assess and evaluate hospital participation, they must communicate
clear outcome expectations and make sure hospitals understand those expectations. This
could be accomplished by clearly coordinating staff training efforts with hospital
assessment criteria and procedures.


                                              10
AGENCY COMMENTS

We have worked in close partnership with OCSE throughout the conduct of this 

inspection. Although we did not receive formal comments from ACF on our draft 

reports, they demonstrated through their collaboration a general agreement with this report 

and the companion reports. We worked with OCSE in developing a research 

methodology, provided extensive briefings on study findings and created additional 

documents to meet agency needs. We appreciate their cooperation and guidance, and will 

continue to work with them on the issues raised in these reports. 





                                             11 

                  Ar,Pendix                A:       Staff         Fact         Sheets
          HOSPITALS CAN HELP CHILDtiN AND THEMSELVES BY PARTICIPATING                                IN
                   MISSOURI’S PATERNITY ESTABLISHMENT PROGRAM

     FACTS 

     �     29.5% of the children born in the United States during 1991 were bJrn out of wedlock. 

     �    32.5% of the children born in Missouri during 1994 were born out of wedlock. 

     �    66% of young, unwed fathers are present at the births of their children. 

     �    80% of young, unwed parents feel it is important for fathers’ names to be on babies’ birth 

 I        certificates.

  DCSE NEEDS YOUR HELP. Last year, 23,845 children were born out-of-wedlock in
 Mkouri. Children raised in single-parent households are far more likely to live in poverty than
 children raised in married couple homes. Many children living in poverty are recipients of Aid
 to Families With Dependent Children (AFDC). Proposed federal legislation will limit the length
 of time a family can receive AFDC. What will happen to children when this assistance ends?
 More than ever, children will need the support of both parents.

 HOW CAN YOU HELP? The Bureau of Vital Records (BVR) provides you with a form,
 Aflakvit to Add Father’s Name to the Birth Record of a Child Born in Missouri Out of Lawfir
 Wea%& The Division of Child Support Enforcement (DOSE) provides you with a pamphlet,
 What It Means to Establish Paternity for Your Baby. Missouri law requires designated hospital
staffto provide the pamphlet and the paternity aflidavit to unmarried parents so they may
~~btarily acknowledge paternity of their child. When the parents sign the paternity affidavit,
the fither’s name is added to the child’s birth certifkate and a presumption of paternity is
created. Once there is a presumption of paternity, DCSE can establish child support akd health
insmmx obligations.

The younger the child, the more likely it is that the father will sign a patemity affidavit. YOUcan
make a dramatic impact on the paternity establishment rate in Missouri if you:

�     ����������    unmam’edparents with the pamphlet, What it Means to Establish Patem@ for
      ���� Baby.
�    Offer BVR’s paternity affidavit to the unmarried parents of children born in your hospital.
�    ~vetbe~~accesstoyournotatiessothattheaffidavitcanbesignedandnotarized
     whilethemothaandthebabyarestillinthehospital.
�    lnformunwtd~~l~thatifeitherpersonisunsureaboutwhothefatheris,M=SEcan
     mmgefMi-eegcnetictcsting.

WHY SHOULD YOU HELP? DCSE knows you are busy. You don’t have a lot of time for
extra paperwork and hassles. But by participating in Missouri’s paternity establishment
program, you will help yourselves in the long mn. DCSE has a legal mandate to establish and
enforce health kurance obligations for children. A health insurance obligation cannot be
aWed until paternity is established. Please help DCSE md yourselves by working together to
establish paternity for Missouri’s children.
                                                   a - ‘1
        NEW JERSEY                F’ATERNITY             OPPORTUNFiY                 PROGRAM 



                              PREVENTING         CHILDHOOD          POVERIY



               WHY HEXLj7-f        CARE     PROVIDERS          SHOULD        CARE ASOUT
                                PAERNIJY         ACKNO WLEDGMENT



 What is the New Jersey Paternity Opportunity Program?

 It is a hospital-based paternity acknowledgment program that providesunmamed couples the opportunity
 to acknowledge their child’spaternity w           when the child is born. The purpose of the Program is to
 help unmarried fathers establish a legal relationship with their children.


Why should hospitals participate in this Program?

FACE 	           In 1993, the number of children born to unmarried parents in the United States     ’’
                 soared to an all-time high - 31% of all births. In New Jersey in 1994,28.4% of all
                 births in the state were to unmarried parents.


FACE          : 	 Chitdren raised in female single-parent households are farmore likely to live in
                  poverty than children raised in married couple homes. In 1991, the poverty rate
                  for children living in female headed homes was 55.5%, compared to a poverty rate
                  of 10.6% for chikfren in married-couple homes.


FACT= :         In 1992,68% of AFDC children were in families with never-married mothers.


FACT: 	         Unwed mothers are less likely to receive child support than divorced,
                separated, of remarried mothers. Only 14.5% of unwed mothers receive
               ,chii support, compared to 31% of separated mothers, 64% of divorced
                mothers, and 48% or remarried mothers.


FACT:           The chances of establishing a child’s paternity decrease as the child gets older.




                                                      A-2 

                    WHY IS PATERNIIY             ESTABLISHMENT              IMPORTANT? 




  Paternity   Establishment       Provides      The Following       Benefits:



 Relationship 	           It is important for a child to know his or her mother and father and benefit
                          from a relationship with both parents. Once a legal relationship is
                          established with the father, the father is more likely to maintain his own
                          relationship with his child.

 Identity                 The fathers information will appear on the child’s birth certificate.

 Medical 	                The child will have information about both parents’ medical histories. This
                          is especially important if the child inherits a medical problem from one of
                          the parents.

Custody and              With legal paternity established, the father can request visitation rights and ask for
Visitation               a share in custody arrangements.

Adoption 	               The father gains the right to have a say in any plans to have the child
                         adopted by someone else.

Benefits 	               The child oan qualify for benefits from both parents including social
                         security, health and Tie insurance, inheritance rights, veteran’s benefits,
                         and others.

support 	                Both parents have a responsibilityto support the child. This indudes
                         financial as well as emotional support If the parents choose to separate
                         and paternity is already decided, it is easier for the mother to obtain -child
                         support from the father.


How Does The Program Work?

Hospitals provide unmarried mothers with information about paternity aoknowtedgment. tf parents want to
establish paternity, they fill out the CerfRare of Parentage. Both patents sign the Cerfkare in the
presence of a witness on the hospital’s staff. If the mother is married but her husband is not the father of
the child, the mother and her husband can complete an Affidavit of Denial of &fern@ to keep the
husband’s name off the Birth &t&ate.         This Denial allows the mother and father to complete the
Q?rtificateof Parentage to add the true father’s name to the birth oertifioate.




                                                      A-3 

           Amendix                   B:    Consequences                            Flow         Chart


                KUdTtUPPENS           HW.ENPATERNITYLTNOTESTABUSHED?




                           When a child is born out-of-wedlock at the hospital,
                           patmityisnotestablishcd(thebabydounothave
                                              a legal htkr).
                                                                                       I




                            /                                                  /

                            .~ombecoa#soneoftheincregsinemlmbefsof
                                      poor, single-parent households.
                                                                               /


                      9                                                            v
   /                                       /                  /                             /
   Mom may apply for public assiam,                            3r she may voluntuily init&te
                                                                   child support services.
                                                                                            c,

                        v
/                                    /                                         V
                                                                                                 /
 AFDC recipients are automatiCally I                          atmitynmstbee3tabii&edb&m
  entitled to child support javices.                            childsupportcanbcordued.
                                                                                                 J




                                 The Child Support Divisiontries to
                                ~1ocatedadandescabiiahpaternity’
                                sotbm%dsuppmcanbeordcred            !




                                                     II-1 

    Ar,Pendix                        C:          Instruction                           Sheets
STATEClf~wlylM                                                                                                     ml
oMo(Q-amwaB                                                                                                       to1
oR*E~cMDsIppoRT


                                     PATERNITY ESTABLISHMENT
                                         INSTRUCTIONS       FOR MIDWIVES

Immediately preceding orfofiowing a birth that was attended by a midwife, when the mother is not married, the midwife
must take the following steps:

   MaotwiththemotlmrandaIbgodtather.

               1. Confirm that they were not married at the time of either concqtion or birth or anytime
                          conce@nandbfrth. Ifthemothetwasmaniedknclaimsthatherhusbandisnotthefather,
                  seethesectionontheback:     wtmnthamodl#rknunMbuthuhllsbJdknotfiwchws

                  mhu.

                                                  “Esta6kd-1 Paternrt~,
              2. Give the motherthe booklet entftled:                            Cw YOGTChtb.3S&d
                  -MonlsusuaflyAslt,andThf?irAnsw!ers.=

              3. 	 Give the alleged faWrthe   bookfet entitkd: ‘Estob bh   Patermt~,   for YOW-Chrzd’s So&d
                  ~DadsusuauyAsk,andTheirAnswers.”




          0    Folbw~1,3,4,5,7,and8.

manbaehpmNntaatgnanAmdmraot~,thomtduttamud:

         0     mduBsuretheparemtshnvethoW@fy~theAffidavitofPatemity;

         0     makesltluaasignahrr#arenolark~:

         0     compktesedorlVoftheAffkja~ofPatemfty;

         0     givethepinkcopyoftheAfMmdtdPaWrnitytothefather;

                                                 (a   #VERSE)



                                                      C-l
                                                     page2
When both parents sign an Affidavit of Paternity the midwife must (cont’d from Page 1):

        0   give the gold copy of the Affidavit of Paternity to the mother;

       �    mail the original Affiiavit of Paternity (white copy) to the clerk of the city or town where the child was
            born with the birth certnicate;
                                                                                                                         I
       0    complete Form, 699, Bill for Affidavit of Paternity;
  C-S-122 16.951
                                      ARIZONA DEPARTMENT OF EC012;OMIC5ECCRlTY

                    INSTRUCTIONS           FOR HOSPITAL STAFF FOR THE COMPLETION                             OF
                              THE ACKNOWLEDGMENTOF PATERNITY PACKET
  The following information addresses your role in offering the Acknowledgment of F%..ty packet to unmarried parents. If you
  have further qUC.stions,please call the Hospital Paternity Program office at (602) 274-8235
   1. 	F%.u distribute the Acknowledgment packet to unmarried parents as soon a.~possible after admission 10 the h~sp~~ and
       encourage them to read a(1of the information provided.
  2. 	 Coofii that the parents v                           other when rhe child was born and rhuxufb*V                    a[
       the time of birth or any time in the ten months immediately preceding the buth.
  3. 	 The Acknowledgment form does not have to be tYped, If the parents fill II out themselves, please ask them IOpMt   clearly   and
     press hard enough to make the copies. Remind them to use BLACKINK.
  4. 	 Check that all sections on the forms are completed. For example, if a parent is unemployed, ‘None” should be put III be
      employer bOX. The parents should complete the occupation section with their usual occupation. If a mother is on AHCCCS
      iostcad Of insUraoCe,put her AHCCCS number in the section for the insurance policy number.
 5. 	 For a newborn child, the DHS copy of the completed and notarized Ackwwledgmen~ must be submirted with rhe original blnh
     c&ficate. The father’s name should be shown on the birth certificate. Remember, this process can only be used if the morher
     is IlQtmarried and both pvenU have signed the Acknowledgment.
 6. ‘I’&oiga       Ac~ledgment,     both the yellow sod pink copies, must be sent to:
                                            Division of Child Support Enforcement 

                                            Hospital PaternityProgram 

                                            PoBox33460 

                                           Pbocoix. AZ 85067 

    PlclscwCtbCUkkdSCd envelopes provided.
7. 	 If w m           culls sign the Acknowledgment before the submittal of the birth certificate, they rmy sign it a1a later date.
     arc are inMlaiollr 011tbc Acknowledgmentform that explain the mail-in ~~OC&UC.If parentswrdt to establishpaterxuq
     for Older children. @USC provide them with additional packets & instruct &cm to follow the mail-h      ~~ISUUC~~OOS00 the back
    0fthcAcknowkdgmaufonn.
8. Ifpuatssbouks&et&o             ordadtrbout~tbcA~w~td~,doedprauretbcmtomnkea
    qp#r . dc!&bo* WY slstldd be @vc!awhatever time they M!d to taut to tklr amtmey(s), to think about it, or to I+
   -~-fhlmtkDivIsiouofch8dsupportEnf~,                                            ~orpiw htedty          l’mgmm office. Remind
   ~~yoo-~tbsQkgBI~.




                                                            c-3
        Appendix                      D:         Reminder                      Checklist 


      NEW JERSEY                   PATERNITY               OPPORJUNITY                   PROGRAM 




                                        HOSPITAL          CHECKLIST




 Cl     Mother given packet containing Certificate of Parenfage, Affidavit of Denial of Paternity, brochures,
        and genetic testing information form.



0
      Each completed form is either printed in blue or black ink.



0
      Every item on each form is filled in, including the names, addresses, parent signatures, social
       security numbers, and witness signatures.



cl     Social security numbers were corlected from each parent and filled in on the form(s). If the parent
       does not have a social security number, a brief explanation is provided in the social security
       number space or at the bottom of the form.



0
     Both parents signed the certificate of Parentage and had their signatures witnessed or notarized.



0
    Both the mother and the father initialed the Rights and Responsibilities on the back of the form.



0
    Both the mother and her husband signed the AfMwit of Denial of Paternity and had their
      signatures witnessed or notarized.



0
    The form is filled out in English, even if read in another language.



0
    Information provided on the form is identical to that provided on the birth certificate.




                                                    D-l
     Appendix                E:        Roles             of     Key         Players 





                   T ogether E veiyone A thieves M ore

                                PUBLIC HEALTH
                                - provide affidavit form
                                -	 prywideinformation on rights
                                   responsibilities
                                - p&de assistance and training




SOCIAL 

3ER\IICES                                                               HOSPITALS 

                                                         fi
                                                                        - assist unwed parent5 in




                                                              3

educate and sell
Importance of                                            3                establishing paternity 

paternity establishment                                                 - forward completed affidavit 

answer techn.ical                                                         and birth certificate 

questions 

assist with child
support orders 





                           PUBLICXEALTH
                           - register birth certificate and affidavit



                          - record patern@ affidavit
                          -	 provide informAtionto DSS for child
                             SUPpI pupodes

                TOGETHER wE CAN HELP A CHILD!!!

                                             E-l
                                                                                          Introduction




             I       The New Jersey Paternity Opportuntty   Program
                                                      --“-‘---7



        J        Purpose of the Paternity Opportunity Program

     The Paternity Opportunity Program is designed to help a chiid of unmarried parents establish a
     legal relationship with his or her father. The Program was conceived (no pun intended!) by
    the State of New Jersey, in response to a federal mandate, to make it easier for parents to
    acknowledge paternity voluntarily using simple in-hospita! processes at the tune of birth. The
    Paternity Opportunity Program (POP) builds upon existing processes that enable unmarried
    parents to add the father’s information to the child’s birth certificate.



 J               Goals of the New Jersey Program

The Paternity Opportunity Program has the potential to increase the number of legal paternity
establishments for children born to unmarried parents. The Program is designed to accomplish
the foliowing objectives:

        b	   Enhance the voluntary paternity process that has operated in conjunction with the
             State’s birth registration process;

    b 	      Encourage parents who are not married to each other to acknowledge paternity
             voluntarily;

    b	       Obtain the benefits of paternity establishment for increased numbers of children of
             unmankd parerits; and

    .        Improve the self-sufficiency of unwed mothers and reduce welfare costs.


J            The Hospital’s Role in Paternity Establishment

New Jersey’s birthing hospitals piay a critical role in the success of the patemitj
acknowledgmentprocess. Under the law, hospitals rrmsfprovide urunarried motherswiththe
forms and information necessary to acknowledge paternity voluntarily. Fortunately,. the




                                                         E-2 

                                                                                       Introduction


     hospitals already have effective procedures in place for collecting birth information and
     processing birth records. Hospitals contribute to the paternity acknowledgment process by:

     b	     Presenting mothers and fathers who are not married to each other with the opportunity
            to acknowledge paternity voluntarily when their child is born;

     b 	    Providing the parents with informational materials to help them understand what
            paternity acknowledgment can mean to them and to their child; and

 b	        Ensuring that the signed paternity forms are processed correctly so that information
           about the father of the child is placed on the birth certificate.


J          The Local Registrar’s Role in Paternity Establishment

New Jersey’s local registrars also play an important role in the success of the Paternity
Opportunity Program. Local registrars contribute to the program by:

b	         Presenting mothers and fathers who are not married to each other with the opportunity
           to acknowledge paternity after the birth is recorded using the Certificate of Parentage
           form; and

b	         Providing the parents with informational materials that will help them understand what
           paternity acknowledgment means for them and their child.



           The Department        of Health’s Role in Paternity Establishment

The Department of Health is responsible for overall coordination and administration of the
State’s birth registration process. Specific roles related to the paternity acknowledgment
process include:

b	
           Contributing to the development of standards and instructions for completing patemity­
           related forms;




                                                    E-3 

                                                                                     Introduction


    b	   Maintaining the State’s Electronic Birth Certificate (EBC) system which allows
         hospitals to generate birth certificates and Certificatesof Parenrage (Parentage forms)
         electronically; and

 b       Providing data regarding paternity status and hospital performance.


         The Office of Child Support and Paternity Programs’ Role in
         Paternity Establishment

The Office of Child Support and Paternity Programs (OCSPP) provides assistance to parents
who wish to establish the paternity of their children and collect child support from an absent
parent. Under federal and state law, OCSPP is charged with implementing a simple process
for unmarried parents to acknowledge paternity volur&&         without going to court.

OCSPP is a strong supporter of the process in New Jersey that has allowed unmarried parents
to add the biological father’s information to a child’s birth certificate in the hospital or local
registrar’s office. OCSPP will also coordinate the development of brochures, video tapes, and
other educational materials to make unmarried parents aware of their option to acknowledge
paternity and the importance of paternity acknowledgment to children.



J        How Paternity Acknowledgment                  Works

Under the former process of signing the back of the birth certificate, New Jersey allowed
unmarried parents to add the biological father’s information to the child’s birth certificate.
With the new Parentage form, the process goes a significant step further by creating a binding
establishment of paternity. This means that ome the parents sign the Parentage form, the law
specifies that the man who signs the form is the legal father.



J        “Married Mothers” and Their Husbands (Presumed Fathers)

What is a Presumed Father?

Under the law, if a married woman gives birth, her husband is presumed to be the father
(“presumed father”) of the child. This is called a legal presumption of paternity.




                                               E-4 

   Appendix                F:        Affidavit                   Instructions

HOW TO COMPLETE THE FORMS

    Affirmation of Paternity, Form JD-FM-145 (Hospital), Page 2 of 2

    Kev No.                              Exnlanation

       1         Docket Number - This number is entered by the court clerk.

    2	           Plaintiff - The plaintiff will be the mother.   Enter her name the same as
                 her signature. See #5, #13, and #15.

    3	           Defendant - the defendant is the father. Enter his name as it appears on
                 the Acknowledgment of Paternity.

    4	           Superior Court - Do not enter anything here. Hospitals are not expected
                 to file the completed acknowledgments with the appropriate court clerk,
                 but instead will forward them to DSS for filing. DSS will determine
                 the proper court in which to file the acknowledgment.

                Enter the mother’s name. Make sure the name is entered exactly the
                same as her signature. For example, if the mother goes by the name
                Pat, but signs her name as Patricia, enter Patricia here.

    6           Enter the mother’s town of residence.

   7            Enter the mother’s county of residence.

   8	           Enter the father’s name as it appears on the Acknowledgment       and in #3,
                above.

   9            Enter the complete address of the father if known by the mother.

   10 	         Enter the full name of the child. For multiple births the names of up to
                four children may be entered on the same afIirmation form.

   11           Enter the child’s date of birth.

   12 	        Enter the town and state of the child’s birth, i.e., the town the hospital
               is in.

   13 	        The mother signs here, in ink, exactly as you have entered her name on
               lines #2, #5, and #15.

   14 	        Enter the date the affirmation is signed, for example, “On this 23rd day
               of October, 1995,“. The Affbmation and the Acknowledgment        do not
               have to be signed on the same date.

                                            F-     1
                Appendix                  G:         Parent            Q & A
 TRANSLATEDMATERIALS

 The forms ate being translated into languages in addition to Spanish. A package of one copy of
 each form in multiple languages will be mailed to all hospitals. If you have any questions about
 the translated forms, please call Jim Mullany, Office of Child Support, at (916) 654-1223.

 ANSWERS TO YOUR QUESTIONS

 1) 	   Q      What  if one parent wantsto sign the Dedarafion of Paternityand the other parent
               does not?

        A	     If only one parent wants to sign the form, it should not be accepted or processed
               by the hospital. The form must be completed and signed by both parents to be
               considered valid. The program is voluntary on the part of both parents.

2) 	    Q      What if the parents do not want to provide all of the information requested on the
               Declaration of Patemiq form?

        A	     Parents who wish to voluntarily declare paternity using the declaration form must
               provide all the information requested except their Social Security numbers.
               Providing Social Security numbers is the only optional information on the form.

3)      Q      Can minor parents complete and sign the Declaration of Paternity?

        A	    Yes. Minor parents may complete and sign a Declaration of Paternity. However,
              other laws and the court will determine if the declaration may be used to establish
              paternity.

4) 	    Q     Is the copy of the Deciizrationof Paternityretained by the hospital considered to
              be a medical record?

        A	    No. The copy of the Declaration of Parer&y retained by the hospital is not a
              medical record. The copy is for hospital administrative use, including processing
              the $10 payment.

5) 	    Q     If the parents return to the hospital after the mother and baby have been
              discharged, are hospital staff required to accept and process the form?

        A	    No. It is recommended that hospitals accept and process the forms submitted prior
              to the time the birth certificate is transmitted to the local deputy registrar of Vital
              Statistics. This is normally five to 10 days following the birth of the child. Parents
              wishing to complete a De&ration of Patemiryafter the hospital has transmitted
              the birth certificate should be directed to the local Family Support Office.

                                               G-l
               Appendix                  G:         Parent           Q & A
TRANSLATEDMATERIALS

The forms are being translated into languages in addition to Spanish. A package of one copy of
each form in multiple languages will be mailed to all hospitals. If you have any questions about
the translated forms, please call Jim Mullany, Office of Child Support, at (916) 654-1223.

ANSWERS TO YOUR QUESTIONS

 1) 	   Q     What  if one parent wantsto sign the Dedaration of Paternityand the other parent
              does not?

        A	    If only one parent wants to sign the form, it should not be accepted or processed
              by the hospital. The form must be completed and signed by both parents to be
              considered valid. The program is voluntary on the part of both parents.

2) 	    Q     What if the parents do not want to provide all of the information requested on the
              Declaration of Paternityform?

        A	    Parents who wish to voluntarily declare paternity using the declaration form must
              provide all the information requested except their Social Security numbers.
              Providing Social Security numbers is the only optional information on the form.

3)      Q     Can minor parents complete and sign the Declaration of Paternity?

        A	    Yes. Minor parents may complete and sign a Declaration of Paternity. However,
              other laws and the court will determine if the declaration may be used to establish
              paternity.

4) 	    Q     Is the copy of the Declaration of Paternityretained by the hospital considered to
              be a medical record?

        A	    No. The copy of the Declaration of Paternityretained by the hospital is not a
              medical record. The copy is for hospital administrative use, including processing
              the $10 payment.

5) 	    Q    If the parents return to the hospital after the mother and baby have been
             discharged, are hospital staff required to accept and process the form?

        A	   No. It is recommended that hospitals accept and process the forms submitted prior
             to the time the birth certificate is transmitted to the local deputy registrar of Vital
             Statistics. This is normally five to 10 days following the birth of the child. Parents
             wishing to complete a Declaration of Paternityafter the hospital has transmitted
             the birth certificate should be directed to the local Family Support Offtce.

                                              G-l
                      Appendix             H:        Leeal     Advice


        C. How not to give legal advice

 When discussing paternity with patients you will sometimes be asked questions that are
 of a legal nature, which could put you in the position of giving legal advice. Offering legal
 advice is reserved for attorneys. The first step in avoiding this is acquiring some
 understanding as to what constitutes “legal advice”. To quote from the Colorado Bar
Assn. Ethics Committee Ooinions. Formal Opinion No. 79: Use of Legal Assistants in
Client ReDresentation at Hearinas. Deoositions or Administrative Proceedinas Adopted
Februan, 18. 1989 (see appendix J). “Generally,when one acts in a representative
capacity in protecting, enforcing or defending legal rights and duties of another and in
counseling, advising and assisting in connection with such rights and duties, such
conduct constitutes the “practice of law”.” Denver Bar Assoc. v. Public UtilitiesComm.,
154 COIO. 273, 391 P.2d 467 (1964). Unauthorized Practice of LavvCommittee V. Prog,
761 p.2d 1111 (Cola. 1988). This definitiongives some guidance on what the courts have
determined is the practice of law, and the final determination remains with the courts.

It is recommended that parents with in-depth questions be referred to the literature
provided by the Colorado Department of Social Services. When question arise that are
outside of the answers provided in these pamphlets, it is suggested that you contact the
county hospital liaisonor refer the patient to an attorney of their choosing.

Experience has shown that parents with technical legal questionls are resistant to
voluntarilysigning a Statement of Paternity and should therefore be referred to a lawyer
or the countyChild SupportOfice.




                                                H-   1

         Appendix                    I:       Hospital                 Needs             Survey

                                                   Hospital Survey



          1. 	 How many staff are designated to offer the acknowledgmsnt   fxrr: ’ Vv%atis the nature of the
               staffs’ position (nurse, medical records, social worker)?



         2. 	 At what point during the mother’s stay are the acknowledgment form and pamphlet
              provided?


         3. 	 Are the staffwho provide the acknowledgment form to the parent(s) also responsible for
              completing the birth certificate?


        4. 	 Does the hospital have any problems with notary availability? Would it be beneficial to have
             additi0r.d notaries?


        5. 	 Would in-service training regarding paternity acknowledgments be beneficial for hospital
             StafI?


        6. 	 Do you facl the pamphlet is appropriate and provides necessary information(is the reading
             level too diflicult, does it adequately address the parents’ concerns)? What suggestions would
             you make for improvement?


        7. 	 Do you fkcl that is a need for bdditiouai educational materi& in the hospital (e.g.,
             panphla    video, second language xnateds, etc.)?


        8. 	 What ptnxntage of the &hers would you e&mate are present during some point of the
             mother’s stay for out-of-wedlock bii?


    ,9. 	   wbar parents choose not to achnowlaigt ptcrnity, do they provide any reason for making
            this choice? If so, what reasons do you hear most iiequcntly?


        IQ.What is the most significant problem you (or your staff) have encountered with the
            implcmcntation of this program?
.   .


        11. What can DCSE do to assist your staff with the in-hospital paternity acknowledgment
            Fm-9
                                                        I- 1
                                      Volunteers in Paternity (VIP)
                               HospitaLBased Paternity Program Survey
                                                  1997

We appreciate the time you are taking to fill out this brief questionnaire. The information
that we collect from these surveys will help us assess the progress and demands of our
program. Please return this survey by Tuesday, March 17, 1997. Thank you for your help,
and feel free to contact us if you have any questions. We have included a Volunteers in
Paternity (VIP) contact list for your convenience.

General Information:

Name of hospitaI/healthcare         facility:
Phone:                                          Ext.
Address:
City:                                                               State:                    Zip

Name of hospital/healthcare facility staff person responsible for distributing hospital-based 

paternity information: 

Name of HospitaUhealthcare facility Chief Executive Officer 


Please estimate how many births your facility has in one month 

Please estimate how many of those births are out of wedlock 


Propram Operation:

1. Name of department          responsible for distributing paternity pamphlets to new parents



2. Name of department responsible for giving new parents the opportunity                      to acknowledge.
paternity for their baby


3. Has this department been in charge of distributing this information               since the beginning of the
Volunteers in Paternity Program?
                  Yes --
                  NO-


4. 	 Has there been significanr     staff turncver     since the \‘olunteers   in Paternity    training?
                  Yes __
                  x0    .__-



                                                            I-2 

             Appendix                J:      Program               Objectives 





                Overview        of Paternity Acknowledgment                  Process




     Hospitals are responsible for giving parents who are not married to each other tie opportunity
     COestablish paternity legally. Hospitals also need to educate unmarried parents about paternity
    acknowledgment and availability of child suppon by making available printed materials and
    videotapes. TO establish paternity at the time of birth, parents must complete the Cenifcate of
    Parenrage (Parentage form). The hospital’s role is to ensure that unmarried parents have
    every Opportunity to complete this form. To fulfill this role, hospitals must:

 .         inform parents not married to each other of their option to acknowledge paternity;

 .        provide the parents with a packet of information about paternity establishment; and

.         ensure the availability of a witness or notary public so that the form can be completed
          in the hospital.

The Parentage form collects much of the same information as the birth certificate and in most
cases the information on the two documents must match. Consequently, hospitals should
process the Parentage forms along with the birth certificates. Beginning in 1995, all hospitals
will have the chance to install the New Jersey Ele:tronic Birth Certificate (EBC),,syStem.
Hospitals that use the EBC will have the ability to produce the Parenrage forms electronically
along with the birth certificates. This will streamline the preparation and processing of the
Parentage forms.


GENERAL GUIDELINES

The following guidelines to the paternity acknowledgment process provide ydu with some
important things to remember.




                                                   J-I 

